<html>
<title> - AGRICULTURAL LABOR: FROM H-2A TO A WORKABLE AGRICULTURAL GUESTWORKER PROGRAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 AGRICULTURAL LABOR: FROM H-2A TO A WORKABLE AGRICULTURAL GUESTWORKER 
                                PROGRAM 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    IMMIGRATION AND BORDER SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 26, 2013

                               __________

                            Serial No. 113-3

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

79-584 PDF                       WASHINGTON : 2013 



                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
SPENCER BACHUS, Alabama              ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     JUDY CHU, California
TED POE, Texas                       TED DEUTCH, Florida
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TOM MARINO, Pennsylvania             KAREN BASS, California
TREY GOWDY, South Carolina           CEDRIC RICHMOND, Louisiana
MARK AMODEI, Nevada                  SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
KEITH ROTHFUS, Pennsylvania

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

            Subcommittee on Immigration and Border Security

                  TREY GOWDY, South Carolina, Chairman

                     TED POE, Texas, Vice-Chairman

LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
MARK AMODEI, Nevada                  JOE GARCIA, Florida
RAUL LABRADOR, Idaho                 PEDRO R. PIERLUISI, Puerto Rico
GEORGE HOLDING, North Carolina

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel



                            C O N T E N T S

                              ----------                              

                           FEBRUARY 26, 2013

                                                                   Page

                           OPENING STATEMENTS

The Honorable Trey Gowdy, a Representative in Congress from the 
  State of South Carolina, and Chairman, Subcommittee on 
  Immigration and Border Security................................     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     2
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     4
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration and Border Security................................     5

                               WITNESSES

Bob Stallman, President, American Farm Bureau Federation
  Oral Testimony.................................................     7
  Prepared Statement.............................................    10
Chalmers R. Carr, III, President, Titan Farms, Ridge Spring, SC
  Oral Testimony.................................................    14
  Prepared Statement.............................................    17
Mike Brown, President, National Chicken Council, on behalf of the 
  Food Manufacturers Immigration Coalition
  Oral Testimony.................................................    38
  Prepared Statement.............................................    40
Giev Kashkooli, 3rd Vice President, United Farm Workers
  Oral Testimony.................................................    44
  Prepared Statement.............................................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Ranking Member, 
  Subcommittee on Immigration and Border Security................    54
Material submitted by the Honorable Trey Gowdy, a Representative 
  in Congress from the State of South Carolina, and Chairman, 
  Subcommittee on Immigration and Border Security................   102


 AGRICULTURAL LABOR: FROM H-2A TO A WORKABLE AGRICULTURAL GUESTWORKER 
                                PROGRAM

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2013

                        House of Representatives

            Subcommittee on Immigration and Border Security

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 2:02 p.m., in 
room 2141, Rayburn Office Building, the Honorable Trey Gowdy, 
(Chairman of the Subcommittee) presiding.
    Present: Representatives Gowdy, Goodlatte, Poe, Smith, 
King, Jordan, Amodei, Labrador, Lofgren, Conyers, Jackson Lee, 
Gutierrez, Garcia and Pierluisi.
    Staff present: (Majority) George Fishman, Chief Counsel; 
Allison Halatei, Parliamentarian & General Counsel; Graham 
Owens, Clerk; (Minority) Perry Apelbaum, Staff Director & Chief 
Counsel; and David Shahoulian, Minority Counsel.
    Mr. Gowdy. Good afternoon. The Subcommittee on Immigration 
and Border Security will come to order.
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time, and in that regard I 
would apologize to the four witnesses upfront. There will be 
votes called at some point during this hearing. I will commit 
to you to come back as quickly as these tired old legs will 
bring me back. So I apologize in advance for any inconvenience, 
but it is unavoidable.
    With that, I would like to welcome, on behalf of all of us, 
all of our witnesses.
    There are at least three things that we all remember from 
this year's Super Bowl: the power shortage; the assault and 
battery that was not called in the end zone on fourth down; and 
most importantly, a commercial with Paul Harvey's voice 
celebrating the respect that all of us have for the American 
farmer.
    Farming is more than just a means of securing a safe, 
reliable food source. Farming is more than just living in 
harmony with land and withstanding the vagaries of nature. 
Farming is a way of life. It is a culture, a uniquely American 
culture in many regards. We would do well to place ourselves in 
the shoes of farmers because we sometimes lose track of what it 
takes for growers to actually put this bounty on the world's 
tables. We lose track of what it takes for them to give us the 
safest, most efficient, most reliable agricultural system in 
the world.
    For those crops that are labor-intensive, especially at 
harvest time, hard labor is critical. One grower might need 
only one or two hired workers to help plant, tend and harvest 
several hundred acres of wheat. However, another might need 
hundreds of seasonal workers to harvest hundreds of acres of 
fruits or vegetables, and a dairy or a food processor might 
need hundreds of workers year round.
    It is universally agreed that at least half of our seasonal 
agricultural labor supply is made up of workers without legal 
residency status. This figure is probably much more than half, 
and could comprise upwards of 1 million unauthorized workers. 
As Congress considers yet again immigration reform, we must 
decide whether and under what circumstances and conditions 
growers can continue to rely on these workers.
    We all seek a future without reliance on unauthorized 
workers. But to accomplish that, we need a guestworker program 
to provide growers with the labor they need, indeed all of us 
need.
    What about the current H-2A agricultural worker program? 
This program is numerically capped, and initial expectations 
were that growers would use hundreds of thousands of H-2A 
workers each year. Yet, the State Department only issues about 
50,000 visas a year. So why is it so under-utilized?
    What I am going to do today is ask the farmers, because in 
the eyes of many, the program itself is designed to fail. It is 
cumbersome. It is full of red tape. Growers have to pay wages 
far above the locally prevailing wage, putting themselves at a 
competitive disadvantage with growers who use illegal labor. 
Growers are subject to onerous rules, such as the 50 percent 
rule, which requires them to hire any domestic worker who shows 
up even after the H-2A worker has arrived from overseas. 
Growers can't get workers in time to meet needs dictated by the 
weather. And finally, growers are constantly subject to 
litigation by those who don't think the H-2A program should 
even exist.
    What growers need is a fair and workable guestworker 
program. They need a program that gives them access to the 
workers they need, when they need them, at a fair wage and with 
reasonable conditions, and they need a partner in the Federal 
Government, not what is often perceived as an adversary.
    A reformed guestworker program will work better for growers 
and for workers. If growers can't use a program because it is 
too cumbersome, none of its worker protections will benefit 
actual workers. If a program is fair to both growers and 
workers, it will be widely used and workers will benefit from 
its protections.
    I look forward to hearing today's witnesses and learning 
how they would reform our agricultural guestworker system.
    I now would recognize the past Chairman of the full 
Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy, for your comments 
about our first hearing of the Immigration Subcommittee. I am 
glad we are here to talk about our country's agricultural labor 
needs, and I welcome the four distinguished witnesses that are 
with us today.
    We talk about how our agriculture industry depends on the 
migrant labor. Right now, half or more of the 2 million 
farmworkers picking our crops and harvesting our fruits and 
vegetables, I am sorry to say, are undocumented immigrants. I 
think this is unsustainable, and I think that the entire 
Committee is motivated to try to do something about this.
    I feel that we all have the common goal of solving this 
problem, and I believe the discussion with the witnesses before 
us can help bring us closer to the solution.
    I want to begin by talking about what we mean when we talk 
about our agricultural labor needs. We know that these are hard 
jobs. We know it is back-breaking work. In many ways, it is 
also skilled work. Maybe you don't need a Ph.D. in engineering, 
but I doubt most engineers would be very good at cutting 
lettuce in exactly the right way to bring it to market.
    We also know that there are Americans and immigrants with 
work authorizations who perform this work, and there are not 
nearly enough of them to get the job done. This is important to 
Members of Congress from districts that produce the hand-picked 
produce that we all enjoy. Their local economies are built upon 
a, frankly, untenable situation. They depend on the labor of 
undocumented immigrants, which means they depend on our 
willingness to tolerate that unacceptable situation.
    The U.S. Department of Agriculture reports that every on-
the-farm job supports 3.1 upstream and downstream jobs in 
processing, trucking, distribution. These jobs are generally 
held by American workers, so the destruction of agriculture and 
the offshoring of all these farm jobs means the loss of 
millions of other jobs in communities across the country.
    It is important to us. So the question that we are faced 
with is what do we do? Last Congress, we heard over and over 
that the solution is to reform the H-2A program for temporary 
seasonal agricultural workers, or to create an entirely new 
program to accomplish that same goal. This Committee never 
considered proposals to allow all of our current undocumented 
workers who work year after year at the same farms, provide 
skilled, dependable labor that benefits us all, to earn 
permanent legal status. These are people who have families, 
have been paying taxes, are good people, and are already doing 
the work that benefits us all.
    Does it make sense to anyone that we should deport all of 
our current workers and replace them with half a million new 
temporary workers who can only stay for 10 months and must come 
and go back every year? It would take billions of dollars to 
deport the farmworkers we already have, something that we know 
can never happen, and we would require growers across the 
country to spend hundreds of millions of dollars bringing in 
new farmworkers.
    So, I conclude with these suggestions. Number one, let's 
find a way to provide legal status to current undocumented 
farmworkers. And secondly, let's see if we can collectively 
create a new temporary visa program to bring in new farmworkers 
when we need them, and this would be efficient for both the 
employers and give the much needed and deserved protection to 
the workers.
    And so we welcome you, gentlemen, and I thank the Chairman 
for his indulgence, and I yield back my time.
    Mr. Gowdy. I thank the gentleman.
    The Chair would now recognize the gentleman from the great 
State of Virginia, the Chairman of the full Committee, Mr. 
Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. I appreciate your 
holding this hearing. As former Chairman of the House 
Agriculture Committee, I have had the opportunity to learn 
first-hand what farmers face in dealing with the H-2A program. 
It is a costly, time-consuming, and flawed program. Each year, 
employers have to comply with a lengthy labor certification 
process that is slow, bureaucratic, and frustrating. It is a 
process that forces them to expend a great deal of time and 
money each season in order to prove to the Federal Government 
what nearly everybody already knows is the case: that legal, 
dependable farm labor is very hard to find.
    In addition, the law forces them to pay an artificially 
inflated wage rate, higher than the prevailing wage in their 
region, and provide housing and daily transportation for their 
workers at their own expense. These farmers are paying an 
average of $10 an hour or more, and still cannot find enough 
Americans willing to take the jobs. Even worse, as a result of 
complying with these H-2A regulations, H-2A farms almost always 
find themselves at a competitive disadvantage in the 
marketplace.
    What all of this tells us is that farmers who participate 
in the H-2A program do so as a matter of last resort and 
conscience. They do it because they know that realistically, 
most of the available farm labor is illegal, and they don't 
want to break the law. A guestworker program should help 
farmers who are willing to pay a fair wage for law-abiding, 
dependable workers, not punish them. For this reason I support 
replacing the H-2A program and implementing new policies that 
will bring our illegal agricultural workers out of the shadows 
as a first step in the process of overhauling our Nation's 
immigration system.
    Addressing the complex labor issues of the relatively small 
agriculture sector can help us understand how we can build our 
broader immigration laws and enforcement mechanisms in order to 
enhance the U.S. economy and make our immigration laws more 
efficient and fair for all involved.
    Instead of encouraging more illegal immigration, successful 
guestworker reform can deter illegal immigration and help 
secure our borders. I believe we should enable the large 
population of illegal farmworkers to participate legally in 
American agriculture. Those eligible will provide a stable, 
legal agricultural workforce that employers can call upon when 
sufficient American labor cannot be found.
    In addition, a successful guestworker program will provide 
a legal, workable avenue for guestworkers who are trying to 
provide a better life for their families. It is well past the 
time to replace the outdated and onerous H-2A program to 
support those farmers who have demonstrated that they will 
endure substantial burdens and bureaucratic red tape just to 
employ a fully legal workforce and to offer a program that is 
amenable to even more participants in today's agricultural 
economy.
    We can do this by designing a program with practical 
safeguards and expanding the current universe of jobs to 
include dairy jobs and work in food processing plants, among 
other things.
    I thank Chairman Gowdy for holding this important hearing, 
and I look forward to hearing from all of our distinguished 
witnesses today.
    Mr. Gowdy. I thank the gentleman from Virginia.
    The Chair would now recognize the gentlelady from the great 
state of California, the Ranking Member of the Subcommittee, 
Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I want to thank both 
you and Chairman Goodlatte for holding this hearing.
    As we know from the three hearings we held on this issue in 
the last Congress, as well as many other hearings before that, 
nowhere is evidence of our broken immigration system more 
glaring and acute than in the ag sector, where as much as 75 to 
80 percent of the workforce is undocumented. I am sure we agree 
that we can't begin to fix our immigration system without 
finding a solution to the agricultural problem. I expect that 
both Chairmen are committed to finding such a solution. I am 
committed to working with them to finding solutions in this 
Congress.
    Let's quickly look at the facts. As we know from past 
hearings, mechanized crops like corn, wheat and soy are not the 
issue here. The challenge is with seasonal, labor-intensive 
fruit and vegetable production, as well as year-round dairy and 
livestock. These areas require a migrant, flexible, and 
experienced workforce. While farmers do their best to plan 
harvests, unexpected changes in humidity or temperature can 
suddenly move a harvest up, giving growers just days to pick 
valuable crops. Failure to find experienced workers or any 
workers at all can lead to significant losses. These losses can 
ripple through our economy.
    Agriculture continues to be a major sector of our economy 
and a primary U.S. export. In fact, we export so many 
agricultural products, many more than we import, that this 
sector is regularly the largest in which we see a trade 
surplus. Yet, Congress has long ignored the labor needs of this 
sector.
    For decades, our country has rightfully educated our 
children for work in other areas. At the same time, our 
immigration laws have made it all but impossible to fill the 
resulting void with legal foreign workers. For example, despite 
a need for millions of workers, some on a permanent basis, our 
immigration laws issue only 5,000 green cards per year to 
people without bachelor's degrees. That is 5,000 per year to be 
shared not just by ag employers but also landscapers, 
restaurants, hotels and nannies, and many other jobs where 
immigrant workers fill a crucial need.
    The H-2A temporary worker program has not filled the gaps 
either. Farmers often complain that the program is too 
bureaucratic and slow, and surveys show that H-2A workers often 
arrive weeks after they are first needed. Many growers feel 
they cannot make the program work, and that is why the program 
has been used so sparingly, reaching the high water mark of 
64,000 visas in 2008.
    In that environment, should anyone be surprised that market 
forces work their magic to pair up willing employers and 
willing workers? If we are honest, we must admit that Congress 
essentially left farmers with no choice but to hire 
undocumented workers. Let's not fool ourselves; we all knew it 
was happening, and we looked the other way as workers came to 
fill the jobs that our country desperately needed filled. Many 
of our constituents are still in business because those workers 
came here.
    So what do we do now? Do we accept responsibility for 
creating this mess, recognize that we have an experienced 
workforce that has been providing critical services to the 
country for years, and provide a way for them to attain legal 
status and continue to help this country succeed? Or do we, as 
some have previously suggested, attempt to throw out millions 
of agricultural workers just to force our growers to import 
millions of other workers through government controlled 
programs that have not worked in the past?
    I think we will all agree that the only viable solution is 
a balanced approach that both preserves the current workforce 
and makes it easier to meet future needs with new workers. If 
we learned anything from our many hearings on this issue, it is 
that a one-sided solution won't work. There was a time when we 
understood that. Years ago, growers and farmworkers came 
together to craft the ag jobs compromise. Supported by both 
business and labor, ag jobs also had the strong support of many 
Members on both sides of the aisle.
    We know that some growers no longer support that 
compromise, and that most Republicans withdrew their support in 
years past. But it nevertheless shows that all sides can reach 
a balanced, bipartisan agreement when we work together for a 
common purpose.
    Now, I am heartened by the news that the American Farm 
Bureau and the United Farm Workers have reengaged in talks to 
reach a balanced and thoughtful compromise, and I welcome those 
negotiations, and I commit to doing what I can to ensure their 
success. The country really needs that you all succeed. We must 
do now what America does best, be pragmatic. We must recognize 
that our laws have been broken for decades, failing to meet the 
needs of entire industries, particularly agriculture, so people 
took matters into their own hands. Yes, the farm workers came 
without obeying immigration rules, and almost every fruit and 
vegetable farm in the country also broke the law by hiring 
them, and the government essentially let it all happen.
    Congress can't escape our role in this. We need to 
recognize that and to do what is right for our country, and I 
have confidence actually that we will do so.
    Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentlelady from California.
    The entire Committee welcomes a very distinguished panel of 
witnesses today. I am going to introduce you en banc, and then 
I will recognize you individually. Many of you have testified 
before, so you are familiar with the lighting system. Green 
means go, yellow means speed up--I hope there is no law 
enforcement around--and red means, if you can, go ahead and 
conclude.
    We are first delighted to have Bob Stallman. Mr. Stallman 
is a rising cattle farmer from Columbus, Texas. He is the 
President of the American Farm Bureau Federation. Mr. Stallman 
was first elected president in January 2000. The American Farm 
Bureau Federation is an independent, non-governmental, 
voluntary organization governed by and representing farm and 
ranch families. Prior to becoming President of the American 
Farm Bureau Federation, Mr. Stallman served as President of the 
Texas Farm Bureau. He became a member of AFBF's Board of 
Directors in 1994. Mr. Stallman graduated with honors from the 
University of Texas at Austin in 1974.
    After he testifies, it will be Mr. Chalmers Carr, who is 
the President and CEO of Titan Peach Farms, which is in South 
Carolina, its largest commercial peach operation. He is also 
treasurer of the South Carolina Peach Council, Chairman of the 
South Carolina Farm Bureau Labor Committee. Mr. Carr began his 
farming career in 1990 and has been with Titan Farms since 
1995. He has participated in the H-2A program for 13 years. He 
received his Bachelor's degree from Clemson University.
    Mr. Michael J. Brown currently serves as the President of 
the National Chicken Council. The National Chicken Council is a 
national non-profit trade association representing the U.S. 
chicken industry. Prior to his joining the NCC, Mr. Brown 
served as Senior Vice President for Legislative Affairs of the 
American Meat Institute. He also served as the treasurer of 
AMI's political action committee, AMI PAC. Mr. Brown earned his 
Bachelor of Science in political science and history from the 
State University of New York, Brockport.
    And finally, we have Mr.--I'm just going to tell you right 
now I am going to mess this up, but I think the last name is 
pronounced Kashkooli. Is that fair? Okay, all right. Mr. 
Kashkooli is the legislative and political director and third 
Vice President of the United Farm Workers of America, 
overseeing the union's political, legislative, research and 
communications work. He served with the UFW for 14 years 
throughout California, New York, Washington and Florida, and 
across to California. He graduated in 1989 from Brown 
University in Rhode Island, where he first became active in 
supporting the United Farm Workers' cause.
    Mr. Stallman, we will begin with you. On behalf of all of 
us again, we welcome you and thank you for your participation.

             TESTIMONY OF BOB STALLMAN, PRESIDENT, 
                AMERICAN FARM BUREAU FEDERATION

    Mr. Stallman. Thank you, Mr. Chairman, Members of the 
Subcommittee. My name is Bob Stallman. I am a rising cattle 
producer from Texas and serve as President of the American Farm 
Bureau Federation. I appreciate the opportunity to testify 
today regarding my organization's views on the agricultural 
labor challenge facing food production in the United States.
    America's farmers, livestock producers, fruit and vegetable 
growers, and dairy producers all have specific labor demands. 
But those demands vary by region, by commodity, by season, and 
by market characteristics. We desperately need--in fact, we 
have needed for some time--a system that is flexible, 
adaptable, efficient and economic for producers. This system 
must attract a sufficient number of competent, willing and able 
employees to sustain and grow production, allow the recruitment 
and hiring of non-resident agricultural workers when the need 
is demonstrated, and allow an opportunity for some current non-
resident agricultural workers to apply for legal resident 
status.
    This need for change is partly driven by the failure of the 
current H-2A program. Farmers and ranchers have witnessed 
increased denials, seemingly arbitrary changes in the 
interpretation of longstanding agency rules, dates of need that 
have gone unmet. In short, the program as it is administered 
today is simply not doing what Congress designed it to do.
    A year ago, American Farm Bureau set out to identify what 
such a system would look like. We established a working group 
from around the country that considered the needs of fruit and 
vegetable growers from California and Florida, livestock 
producers and custom harvesters in the Midwest, dairy farmers 
in upstate New York and everywhere in between. And we didn't 
just talk to ourselves. We sought input from worker advocates, 
Members of Congress on both sides of the aisle, Committee 
staff, labor unions, and labor advocate groups.
    We also talked to other agricultural interests. This led to 
the founding of the Agriculture Workforce Coalition. Clearly, 
we wanted to identify the needs of growers, but we also wanted 
to be sensitive to the rights and needs of workers. To 
summarize briefly, our program would be a wholly new program 
that is market based. We envision that, over time, it would 
entirely replace H-2A. It would be administered by the U.S. 
Department of Agriculture. Further, it would eliminate 
unnecessary bureaucracy and expenses both for the government 
and employers, and it would provide workers job portability and 
the freedom to quit and leave for other positions if they wish, 
a right they currently do not have under H-2A.
    Importantly, it would broaden the program to all of 
agriculture, including year-round jobs. There is currently no 
program, even H-2A, which provides this opportunity to workers 
or employers.
    It would allow employers to offer a contract for certain 
jobs, but would not require workers to take such positions, an 
option they currently do not have.
    My written submission to the Committee goes into much 
greater detail about our proposal, and I will be pleased to 
answer questions from the Committee about any specific 
provision.
    Provided that this Committee and Congress can adopt such a 
program, my organization would be prepared to accept greater 
employer verification obligations, such as E-Verify. As you may 
recall in the last Congress, Farm Bureau could not support the 
E-Verify legislation approved by this Committee for the simple 
reason that we were not provided a workable program.
    There is an important additional provision to our program 
that I would like to stress. In order to provide short-term 
stability and an orderly, effective transition to this new 
guestworker program, we believe Congress should include 
provisions permitting certain workers who have worked in U.S. 
agriculture who might not otherwise qualify to obtain work 
authorization. Granting existing experienced agricultural 
workers work authorization is a crucial part of making sure 
that there is not economic dislocation in the agricultural 
sector while we transition to a new program.
    Last, while I am testifying today on behalf of American 
Farm Bureau, I want to reiterate the impact of the Agriculture 
Workforce Coalition. Agriculture has faced disagreements in the 
past. Today, the AWC represents a range of broad agricultural 
interests from coast to coast. The unity of this group speaks 
volumes for the importance of this issue for the industry. The 
proposal I have outlined today is aligned with the views of the 
AWC, and all of agriculture is united behind this common effort 
to break with the past and construct a model program that will 
work for us in the future.
    All of us recognize the highly contentious nature of this 
debate, but we urge the Committee to remember one overriding 
fact: U.S. agriculture needs a comprehensive, workable 
solution. We cannot wait, and we pledge our support to you and 
all Members of the Committee as you grapple with this issue.
    I appreciate this opportunity to testify and will be 
pleased to answer any questions from the Committee.
    [The prepared statement of Mr. Stallman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Gowdy. Thank you, Mr. Stallman.
    Mr. Carr.

        TESTIMONY OF CHALMERS R. CARR, III, PRESIDENT, 
                 TITAN FARMS, RIDGE SPRING, SC

    Mr. Carr. Thank you for allowing me the opportunity to 
explain my experiences and my views of the deficiencies in the 
H-2A program and share with you the needed reforms to create a 
viable guestworker program.
    I am the farmer in the group. I am the one here that does 
this every day. My name is Chalmers Carr, and I own Titan Farms 
in Ridge Spring, South Carolina, where I grow 5,000 acres of 
peaches and farm 700 acres of vegetables. I have been working 
within the H-2A program for the last 14 years, employing 500 
legal alien workers just last summer.
    Looking beyond the role that agriculture plays in national 
security, I ask you to think about food safety and the impact 
that the fruits and vegetables imported into this country have 
on our society. Due to labor shortages, domestic production of 
fruits and vegetables is declining, while imports are 
increasing. An FDA report shows that imported vegetables are 
three times more likely to be contaminated with foodborne 
pathogens and four times more likely to be treated with 
pesticides exceeding domestically grown produce.
    I ask you to ponder this one statement: A country with an 
abundant food supply has many issues. However, a country that 
cannot feed itself only has one.
    In order to have a vibrant and robust agriculture industry, 
we must have a workforce that is vibrant and robust as well. 
The current U.S. labor market is experiencing a negative 
demographic trend. The Baby Boomers are getting older, and our 
younger generations, who are far less in numbers, are using 
their brains instead of their backs.
    There is also an enormous misconception that our country 
has an abundant supply of American workers willing to work in 
the agriculture industry. Even in the recent recession, 
unemployment of domestic workers at the farm level did not 
increase. Furthermore, it is commonly accepted that 50 percent 
of the 1.2 million workers in agriculture are undocumented. I 
heard today it is 75 to 80 percent. Because of this large 
percentage of undocumented immigrants, states have felt 
abandoned by the Federal Government and have begun to pass 
their own immigration and employment verification laws. Such 
cavalier legislation is having a negative impact on the 
availability of farm labor.
    Currently, there is a shortage of workers regardless of 
their legitimacy. Demographic trends clearly show that this is 
an ongoing problem and that this is only going to get worse. 
This is why agriculture must have a viable guestworker program.
    The current H-2A program only supplies 4 percent of the 
labor force needed in agriculture. This statistic alone 
verifies the fact that the H-2A program is riddled with 
problems and is cumbersome to use, that the vast majority of 
agriculture employers have stayed clear of it.
    I would like to highlight the major problematic areas of 
the H-2A program, details of which are contained in my written 
statement before you. First and foremost, the program is 
limited in who can participate. The wage rate is not market-
based and not realistic. The 50 percent rule for recruitment, 
the application process, the requirement to provide housing, 
the transportation and visa fees, and lastly, the litigious 
nature of the program, these are the key reasons why the 
agriculture industry has not used the H-2A program.
    As Mr. Stallman said, the agriculture community has been 
divided, and we have come together. The Agriculture Workforce 
Coalition, or AWC, is now speaking with a united voice, 
representing the diverse needs of agriculture employers from 
across the country. As you begin the debate on guestworker 
reform, I would ask you to consider the problematic nature of 
the current program and incorporate solutions that I have 
provided in my written statement which are consistent with the 
AWC's principles on guestworker reform.
    Lastly, I would address this Committee and ask you to hear 
just one statement very clearly. The agriculture industry 
cannot endure another election cycle. Whether you tackle 
comprehensive immigration or not, the agriculture community 
needs immigration reform, and we need a guestworker program 
now.
    I would like to leave you with this last question. Would 
you rather have the food you feed your family grown on the 
fertile soils under the governance of the USDA and the FDA 
being harvested by lawfully admitted foreign nationals, or are 
you willing to accept putting food on the dinner table tonight 
that was grown in a foreign country with unknown production 
practices, unknown food safety protocols, while either way that 
food is still going to be harvested by a foreign national?
    It is my hope that Congress desires to ensure that American 
farmers can continue to feed Americans at home, with plenty 
left over to feed the rest of the world. Thank you for your 
time and consideration.
    [The prepared statement of Mr. Carr follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________

    Mr. Gowdy. Thank you, Mr. Carr.
    Mr. Brown.

 TESTIMONY OF MIKE BROWN, PRESIDENT, NATIONAL CHICKEN COUNCIL, 
   ON BEHALF OF THE FOOD MANUFACTURERS IMMIGRATION COALITION

    Mr. Brown. Mr. Chairman, Chairman Gowdy and Ranking Member 
Lofgren, I appreciate the opportunity to testify here today on 
the important issue of comprehensive immigration reform.
    I am Mike Brown, President of the National Chicken Council. 
NCC's members produce and process more than 95 percent of the 
chicken consumed in the United States. I am testifying today on 
behalf of a broader Food Manufacturers Immigration Coalition. 
To date, much of the immigration reform discussion has focused 
on the need to retain highly skilled workers such as scientists 
and engineers, and the need for additional temporary 
agriculture workers. These are important objectives, but they 
do not meet the needs of our industry sector.
    We seek workers who will stay on the job to become skilled 
and efficient, helping us to keep our food products and 
employees safe. This takes investment, up to thousands of 
dollars spent on training and equipment for each employee.
    The coalition's principles are as follows. Under 
enforcement, while border security has improved significantly 
over the past decade, improvements can be made to further lower 
the number of illegal border crossings. One suggestion the 
coalition has is to provide exit or expiration data to E-Verify 
to aid the government in its effort to track visas and prevent 
overstays.
    Under strengthening employment verification and preventing 
identity fraud, unfortunately the government does not provide 
employers with a reliable verification method to prevent 
identity fraud. E-Verify is a step in the right direction, but 
it must be strengthened. Our industry has had nearly 20 years 
of experience using this program.
    If strengthened, this program will serve as an effective 
and efficient virtual border, if you will, because the 
electronic data will keep folks from seeking employment if they 
know they can't pass.
    Over the past decade, the government has discovered 
thousands of ineligible employees working for employers who 
have processed these employees through E-Verify. The system 
does not account for identity fraud. Currently, multiple people 
can earn wages on the same Social Security number or use the 
Social Security number of a deceased individual.
    The solution? Employers should be allowed to require an E-
Verify Self Check. E-Verify Self Check is an online service 
that allows individuals to check their employment eligibility 
before beginning a new job. The Self Check entry portal helps 
prevent identity fraud by melding E-Verify with an automated 
Connect The Dots program, similar to credit background checks 
when we all apply for credit cards or other information.
    Under the current interpretation of the Office of Special 
Counsel for Unfair Immigration-Related Employment Practices, 
employers may not require anyone to use Self Check in the 
employment process. In fact, we may not even discuss it with a 
prospective employee. The Social Security Administration must 
be required to verify that Social Security numbers are not 
being used in duplicate locations or are not matched to 
deceased individuals. In return for participating in these 
aggressive screening programs, a safe harbor should be provided 
for employers that utilize the E-Verify Self Check and follow 
the automatic referral process.
    Under anti-discrimination, employers can often be caught 
between an employee verification obligation and non-
discrimination enforcement. For example, the Department of 
Justice's Office of Special Counsel has cited employers for 
allegedly acting too aggressively in verifying work 
authorization status of new hires. Simultaneously, the same 
business is often targeted for worksite enforcement action for 
not being vigilant enough. Statistic-based discrimination 
penalties have been imposed on employers who recruit outside 
the local community or work with the State Department to hire 
workers with refugee status when Americans are unavailable or 
unwilling to fill these jobs.
    Immigration reform legislation should require that DHS, 
DOJ, DOL, and other enforcement or anti-discrimination agencies 
consult internally and publish rules of the road; in essence, 
harmonize the law throughout the Federal Government.
    Access to labor. An effective occupational visa system may 
be the most important barrier to illegal immigration. The 
existing temporary programs for general labor skilled workers 
are for seasonal labor only, which does not help manufacturers 
whose occupational needs are year-round and ongoing. Ag jobs 
legislation, as important as it is, does not benefit food 
manufacturers.
    A manufacturing visa program should include flexible annual 
goals or targets for immigration that emphasize economic 
migration, predominantly employment-based migration. These 
goals or targets should be flexible and adjustable to reflect 
changing conditions.
    On earned legalization, our coalition supports an earned 
legalization program. Our broken immigration system has 
resulted in up to 11 million undocumented immigrants living in 
the shadows. Congress must provide a fair and practical roadmap 
to address the status of unauthorized immigrants in the United 
States.
    Mr. Chairman and Members of the Committee, again, I 
appreciate the opportunity to testify before you today.
    [The prepared statement of Mr. Brown follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________

    Mr. Gowdy. Thank you, Mr. Brown.
    Mr. Kashkooli.

 TESTIMONY OF GIEV KASHKOOLI, 3RD VICE PRESIDENT, UNITED FARM 
                            WORKERS

    Mr. Kashkooli. Thank you, Chairman Gowdy, Ranking Member 
Lofgren, and Members of this Subcommittee. Thank you so much 
for the opportunity to testify today. I know that from Florida 
to Idaho, you have extraordinary experience here, from 
Congressman Gutierrez to Chairman Goodlatte, the amount of 
years that you have put in, along with Congressman Gowdy and 
Ranking Member Lofgren. It is extraordinary what you have put 
in, and we really do believe we are now in a very special 
moment.
    My name is Giev Kashkooli. I am a Vice President of the 
United Farm Workers of America. We are honored to speak with 
you today, to share alongside the American Farm Bureau and Mr. 
Brown and Mr. Carr some of the issues that confront American 
agriculture for agriculture employers and for agricultural 
workers, for farmers and for farm workers.
    America's farms and ranches produce an incredible bounty 
that is the envy of the world. The farmers and farm workers 
that make up our Nation's agricultural industry are truly 
heroic in their willingness to work hard and take on the risk 
as they plant and harvest the food all of us eat every day.
    But our broken immigration system threatens our Nation's 
food supply. Thankfully, many of you have devoted many years to 
help fix this, and while our views have diverged in the past 
from those of Chairman Goodlatte, we do not question 
Congressman Goodlatte's commitment to improving our immigration 
system for agriculture, and we are very grateful for the 
seriousness with which you have studied these issues.
    The UFW and our Nation's agricultural employers have often 
also been at odds on many policy issues, but we have been 
working diligently to see if we can come to an agreement that 
would unify our agricultural employers and our agricultural 
workers in the agricultural industry, and we believe we are 
making progress toward that end. We really are in a unique 
moment to get something done.
    Let me speak a little bit about what is at stake for the 
women, men, and children who work in the fields and do some of 
what Congressman Goodlatte recently called the hardest, 
toughest, dirtiest jobs. Every day across America, about 2 
million women, men and children labor on our Nation's farms and 
ranches, producing our fruits and vegetables and caring for our 
livestock. At least 600,000 of these Americans are U.S. 
citizens or permanent legal residents. Our migrant and seasonal 
farm workers are rarely recognized for bringing this rich 
bounty to supermarkets and our dinner tables, and I think that 
is why, Chairman Gowdy, so many of us were struck by the 
commercial that you mentioned. Most Americans cannot comprehend 
the difficult struggles of these new Americans who work as farm 
workers.
    Increasingly, however, American consumers are asking 
government and the food industry for assurances that their food 
is safe, healthy, and produced under fair conditions.
    The life of a farm worker in 2013 is not easy. Most farm 
workers earn very low wages. The housing in farm worker 
communities is often poor and overcrowded. The Federal and 
state laws exclude farm workers from many of the labor 
protections other workers enjoy, such as the right to join a 
union without being fired for it, overtime pay, many of the 
OSHA safety standards, and in many states they don't even have 
workers compensation for farm workers.
    Farm workers were excluded from these Federal laws in the 
1930's, and that is one of the sadder chapters in the history 
of our Nation, the reasons why. Even in California, where we 
have won many of these protections and farm workers get many of 
these protections, we still have seen dozens of farm workers 
die over the last several years for the simple lack of water or 
shade working in that hot sun. Not everyone is able to work on 
Mr. Carr's farm, a farmer who is really following the law. Such 
poor conditions and discriminatory laws have resulted in 
substantial employee turnover in agriculture.
    So we also want to have a serious discussion about the 
future of the workforce upon which American agriculture and 
American consumers depend. First and foremost, we seek an end 
to the status quo. Our number one priority is reform of our 
immigration process that includes a workable legalization 
program for the 1 million or more farm workers who are 
currently working in the fields and their immediate family 
members, with a roadmap toward a permanent resident status, and 
then to citizenship.
    We believe that the farm workers who harvest our food and 
feed us deserve, at the very least, the right to apply for 
permanent legal status. To the extent a new path is needed to 
bring professional farm workers from abroad to this country, 
these workers should be accorded equality, job mobility, strong 
labor and wage protections, and an opportunity to earn 
immigration status leading to citizenship.
    We have seen Europe's failed experiment of second-class 
legal status, and we at the United Farm Workers, we believe 
that America really is exceptional, like I think all of you do. 
Our agricultural system is just one more example of how America 
is exceptional. So we should honor the new Americans who 
continue to build our agricultural system as the heroes that 
they are for our country.
    Now, there are agricultural employers who will need to 
continue to have the security of a contract with farm workers 
so that they can make sure to meet those needs, and we are 
hopeful that complaints about bureaucracy that we all 
understand would not justify reducing wages and job 
opportunities of U.S. workers, or eliminate wage, housing, and 
transportation protections.
    We thank you very much. We believe that we can come to a 
system that can honor our American values and our exceptional 
agricultural system.
    [The prepared statement of Mr. Kashkooli follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________

    Mr. Gowdy. Thank you, Mr. Kashkooli.
    The Chair will now recognize the Chairman of the full 
Committee, the gentleman from Virginia, Mr. Goodlatte, for his 
5 minutes of questioning.
    Mr. Goodlatte. Thank you, Mr. Chairman, and thank you all 
for your excellent testimony.
    Mr. Stallman, let me start with you. The fundamental basis 
of your guestworker proposal is a market-driven approach in 
which workers with portable visas could seek agricultural 
employment around the country. I certainly recognize and 
appreciate the need for that.
    However, doesn't the risk exist that these guestworkers 
will seek illegal employment outside of agriculture? And if 
that is the case, doesn't your proposal depend upon the 
existence of a mandatory E-Verify to ensure that guestworkers 
can't get jobs outside of agriculture?
    Mr. Stallman. Yes, we have readily acknowledged that there 
has to be a system and process for monitoring these workers to 
be sure they are meeting the requirements of their work status, 
and E-Verify is definitely a way to do that.
    Mr. Goodlatte. And I say this not to punish these workers. 
I say this because this is a balance that we are trying to find 
between the interests of American workers and workers that we 
need because there is a shortage, as Mr. Kashkooli 
acknowledged. If you have 2 million workers in agriculture, and 
600,000 of them are United States citizens, obviously there is 
a big need for non-U.S. citizens. We would like to get as many 
U.S. citizens into this area as possible, and if it is a 
market-driven approach where you are paid a fair market wage, 
we would like to see that accomplished.
    But we also need to have a system where people come, and 
then don't go into other sectors of the economy and compete 
with U.S. workers in areas where they are willing to work and 
take the jobs and undercut the wage rate in that area. That is 
a separate issue from what happens to them long term, and I 
would argue that there will be a number of different ways where 
people who have this opportunity could ultimately find other 
opportunities. They might marry a United States citizen. They 
might get an education and petition for a job that requires 
more skill, and that is not to say that this is not skilled 
work, but more skill that would enable them to qualify for a 
different type of work with a green card.
    But that is a separate thing from a temporary worker 
program that is needed, and if you don't have a mechanism to 
allow them to come here, work, send money home to their 
families and so on, you're going to find that you have a system 
where you are constantly replenishing a huge number of people, 
over 1 million a year. If they do it for several years, it 
might be several hundred thousand new people a year that you 
would have to then be providing a green card.
    So we need to have, if we are going to do a broader base, 
some call it comprehensive immigration reform, we need to have 
a component here that will work for this industry that is not 
only heavily dependent upon these workers, but also heavily 
competitive with international competition. Food can be 
produced in lots of different countries around the world.
    So designing something that works for agriculture is a 
critical part to designing something that works for a solution 
to this entire problem.
    Let me ask you also, Mr. Stallman, do you believe that meat 
processors and fruit and vegetable canners, which are not in 
the fields--they have raised that product, they have harvested 
that crop and now brought it into a processing plant--do you 
believe they also should have access to a new guestworker 
program?
    That is directed to you, Mr. Stallman.
    Mr. Stallman. I am sorry. I thought that was Mr. Carr. We, 
in our proposal, talk about extending our program up the chain 
for basically unfarm packing facilities. When you get into the 
more advanced food processing and processing facilities, in 
fact, a lot of those entities, particularly in the livestock 
sector, have not wanted to be part of the agriculture program, 
and those sectors generally have a different labor need and 
different labor conditions than what we do on the farm because 
it is permanent work, for the most part it is indoor work.
    Mr. Goodlatte. Right, but there are certain farm works--for 
example, if you have a dairy farm, your work is not temporary. 
It can be indoors because those dairy parlors are indoors. So 
there is sort of a transition there between the temporary field 
workers that we definitely recognize, and the traditional H-2A 
worker program is not well-designed, but is it is designed to 
address, moving to farms that produce a product every day of 
the year, milk in this instance, to folks who take that product 
off the farm and further process it. If you visit those 
facilities around the country, you will find that there is a 
need for workers in that area that may be just as great as in 
the farming area.
    Mr. Stallman. We are basically using the current 
definitions in our proposal for what constitutes a----
    Mr. Goodlatte. Would you be open to a broader definition to 
try to address this problem from a broader standpoint?
    Mr. Stallman. I think I would leave that to those 
particular industries and those particular entities to come up 
with that.
    Mr. Goodlatte. Okay. Well, let me ask Mr. Brown and Mr. 
Kashkooli.
    Mr. Brown. Thank you, Chairman Goodlatte. As you know, in 
our industry, we look for a more permanent employee. But as far 
as a temporary visa program to help with our labor needs, 
particularly in times when the economy is doing quite well and 
it is difficult to attract labor, we would be very open to a 
new visa category for employees for, say, a 24- to 36-month 
period. When you think of the up-front investment you have made 
in time and training and the thousands of dollars, we would 
certainly be open to that and support such a move forward.
    Mr. Goodlatte. Mr. Kashkooli?
    Mr. Kashkooli. Sure. I think in terms of dairy, it is clear 
there is a case to be made there. In terms of packing houses, I 
think we are more comfortable with the existing definitions. I 
think for us, there are, in fact, a lot of ways to do this. 
What is important is that there are certain guideposts. There 
are 600,000 farm workers now who are U.S. citizens and 
permanent legal residents we are talking about, we hope. All of 
us are talking about taking the existing workforce who does not 
have legal status and allowing them to earn legal status.
    So the three things in terms of just guideposts is, first, 
we just cannot hurt the job opportunities for those people, and 
that would be true if it was in packing houses as well. Second, 
we have got to therefore be concerned about what does 
recruitment look like so that those people know about the work. 
And third, we need to be learning about wages.
    I have heard that the current wage rates are artificial. We 
do believe they are artificial. We believe they are 
artificially low. The majority of the workforce doesn't have 
legal status, and therefore the wages have been artificially 
depressed in any real market.
    Mr. Goodlatte. Well, let me just interrupt you there. Do 
you believe that if we had a system where they had now legal 
status in the United States, whatever that might be, but they 
had legal status, and as Mr. Stallman describes, they have the 
ability to leave a job where they feel they are being treated 
unfairly, and they have the ability to move from farm to farm 
without having an H-2A petition filed for each and every farm 
location, if they had that, their wages might well go up, might 
it not, under a market-driven approach? As opposed to having a 
bureaucracy trying to figure out what that wage should be, 
which is what we do right now.
    Mr. Kashkooli. Right. You may be surprised to know that we 
believe that private citizens acting collectively can be more 
effective than government regulation.
    Mr. Goodlatte. And I am glad to hear that. I agree with 
that.
    Mr. Kashkooli. Great. I thought so. What President Stallman 
described, actually, sounds right. But the problem here is the 
written proposal that they have proposed does not do that. In 
their written proposal, there is an ability to tie a worker to 
a contract and have their visa impacted by that contract. So 
what we would be in favor of is two programs, one truly free 
market, and I want to get to that in just a second; and second, 
a contract program that is either H-2A or modeled after the 
protections of H-2A, which, after all, were a compromise 
originated by President Reagan.
    And for the employers that need the security of knowing 
that a worker needs to show up exactly at that date and for 
however long the season is, knowing the weather variations, 
they are probably going to continue to need to use that 
contract program and then connect themselves to a set of 
government protections for all of the historic reasons that 
have had to take place.
    On the free market, we think that makes a lot of sense. We 
want to make sure that it is not an artificial free market, so 
there should not be an endless supply of minimum-wage labor. 
That is not a truly free market. It should not be an unlimited 
supply. So there needs to be some kind of cap. There really 
does need to be portability. A worker really does need to be 
able to move. They need to have equal labor rights. There 
cannot be an incentive to hire that person over the other 
people who are working in the United States, and there needs to 
be some kind of roadmap to citizenship, we believe.
    And the reason is because, as Chairman Gowdy just mentioned 
in referencing that commercial, the people who are harvesting 
our food which we eat every day, it is a euphemism to call them 
guestworkers. These are the new Americans who are working our 
land and feeding us. That is honorable, sacred, beautiful work. 
And to say to the people who do that work--we believe that the 
people who do that work should be able to, at least at some 
point, if they are not in fact temporary, if they in fact are 
coming back year after year, at least be able to earn the right 
to apply for legal status.
    Mr. Goodlatte. Both Mr. Stallman and Mr. Kashkooli offered 
good contributions here to something that needs to be resolved.
    My time has long expired. I think we have a vote pending.
    Mr. Gowdy. I thank the Chairman.
    I would now recognize the Ranking Member, the gentlelady 
from California, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. Before asking my 
questions, I would like to ask unanimous consent to put into 
the record statements from the Western Growers, from Farmworker 
Justice, the Southern Poverty Law Center, California Rural 
Legal Assistance, Global Workers Alliance, and several others, 
if I could.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________
    Mr. Gowdy. And without taking any of your time, I would ask 
the same for a statement from our colleague, Doc Hastings.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________

    Ms. Lofgren. I would also like to just note that a 
wonderful person who is leading a delegation from California is 
here in our hearing room, Professor Cynthia Mertens from the 
University of Santa Clara School of Law, my alma mater. So 
welcome, Professor Mertens, and the students and others that 
you have brought here today. It is wonderful to see you.
    I have a number of questions. First, our prayers are with 
President Rodriguez. We know that he had a death in his family 
and was unable to be here, but we are very pleased to have you, 
Mr. Kashkooli, and your terrific testimony.
    You have talked a little bit about the portability issue 
and the idea that you really would be for portability, but 
there is a flaw in the proposal that has been put forward. I am 
not sure I understand that flaw. Could you explain it clearly 
to us?
    Mr. Kashkooli. Sure. I will be sure to pass on your 
condolences to Arturo.
    In the existing written proposal that the Growers 
Association has put together, in the so-called free-market 
program, they want the ability to tie workers to a contract 
that the Federal Government is involved in, and their visa, it 
has control over that visa. Therefore, the worker would have to 
go home if they broke the contract. That, therefore, is not 
portable. That worker does not have the ability to do that.
    We do not object to an employer being able to tie a worker 
to a contract even if the Federal Government is involved. But 
then if that happens, we need to make sure that the set of 
protections that were negotiated under President Reagan or 
something like them, their equivalent, continue to be in place.
    Senator Rubio has said that if an employer has a lot of 
leverage over the worker, then the worker needs to have more 
sets of protections from the government, and we subscribe to 
that.
    Ms. Lofgren. So if I understand it correctly, you are 
actually not objecting to having a temporary worker program, 
provided that it is truly portable, there are labor protections 
that don't incentivize employers to hire guestworkers as 
compared to American citizens or legal permanent residents, and 
that there is cap so that you actually have a market, not a 
limitless supply of foreign workers. Would that be a fair 
summary of your position?
    Mr. Kashkooli. That is exactly right, with two other 
additions. One, equality of treatment; and second, a roadmap to 
citizenship for people who are not, in fact, temporary. 
Somebody who is temporary, but someone who is here year after 
year and most of the year, that is no longer temporary.
    Ms. Lofgren. So that is addressing people who have been 
here for a long time and people who might in the future come 
for a very long period of time.
    Mr. Kashkooli. Correct.
    Ms. Lofgren. You know, even though we don't have agreement 
yet, it seems to me that there are the elements for getting an 
agreement here, and that is a piece of good news that we can 
actually make progress on.
    I am happy that the California Farm Bureau is represented 
by the American Farm Bureau, I guess. We had testimony from the 
California Farm Bureau in the last Congress that they would 
oppose mandatory E-Verify without a solution for transitioning 
the current workforce into legal status, because just doubling 
down on the current situation would be a catastrophe. And they 
also indicated that the H-2A program simply didn't work for 
them. I realize that the H-2A program has worked in some 
locations. We had testimony to that effect. But I think for 
most farmers, it has not worked.
    Do you agree, Mr. Stallman, that it would be really 
impossible to replace the current undocumented workforce with 
just a temporary program? Are you clear about that?
    Mr. Stallman. So you are talking about not doing anything 
to craft a program for those workers that are----
    Ms. Lofgren. Well, we had Dr. Richard Land from the 
Southern Baptist Convention who was a witness at the Committee 
a number of years ago. I don't want to steal his line because 
it was so well put, but he said that for years and years we had 
two signs at the southern border. One sign said ``No 
Trespassing,'' and the other sign said ``Help Wanted.'' In 
response to the latter sign, 10 or 11 million people came in. 
There was no legal way for them to enter and do this job. Many 
of those individuals have been here for many, many years, 
decades.
    So, if those skilled individuals are working in 
agriculture, can they all be replaced just by a temporary 
worker program? If they were removed, could you actually make 
this work?
    Mr. Stallman. Unlikely, at least at the level that exists 
today, and that's why our proposal takes into account both of 
those factors.
    Ms. Lofgren. Right.
    Mr. Stallman. You know, how do you handle that experienced 
workforce that is here? They have been referenced as 
undocumented. They are documented, but the documents probably 
are fraudulent.
    Ms. Lofgren. Right.
    Mr. Stallman. The law prevents employers from questioning 
the validity of the documents.
    Ms. Lofgren. I understand that.
    Mr. Stallman. Yes, they are here, and that group needs to 
be dealt with. Part of our proposal deals with that.
    In addition, though, we need that future flow capability--
--
    Ms. Lofgren. I understand. But I wanted to press you, 
because some people have asserted in the past that we could 
simply eliminate the vast undocumented group of workers and 
just replace them with a temporary worker program, and I know 
your testimony was that that was not the case. But I thought it 
was important that that be very clear, that that is just not a 
workable scenario for your industry.
    Mr. Stallman. Because of all that experience that exists 
there, although it is the long-term employees that have all the 
experience, it would be highly disruptive if the scenario that 
you described occurred where we couldn't continue to use those 
who are currently here, not with legal status, and just try to 
replace those with some kind of future flow or temporary 
program.
    Ms. Lofgren. Thank you. I see my time has expired, so I 
will yield back.
    Mr. Gowdy. I think the gentlelady.
    They have a call for a vote, so I am going to try to 
squeeze in Judge Poe before we go. I would just say to my 
colleagues on both sides, I am coming back. I am going to go 
last. So if you are able to come back after votes, I promise 
you will not be the last one to ask your questions.
    With that, Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you for being here, gentlemen. Mr. Stallman, it is 
good to see you. I notice you grow rice and Columbus. I 
represent a lot of rice farmers in Liberty County, Texas. Many 
times I am asked, well, how many illegals work for the rice 
farmers in Liberty? Well, the answer is always none. They are 
too poor to hire anybody. It is all family farms. They have the 
sons and the daughters and the uncles and aunts all working 
those rice farms, and I am sure that is the same with you. Rice 
farming to me is the hardest farming there is.
    But anyway, I think the whole concept of food, Mr. Carr, is 
like you said. It is one thing for the United States to be 
dependent on foreign oil, but I think we can never get into a 
situation where we are dependent on some other country for what 
we eat. It is a national security issue. It is also a national 
health issue. So I operate on that premise.
    I do think the concept that it is working to some extent 
with the H-2A visas has merit, and I think that is a good place 
to start to fix it, and I also believe we should have a 
verified, expanded guestworker program in other areas, but deal 
with this issue first, and then, as the Chairman has said, let 
the market drive the whole issue of guestworkers.
    I commend all of you for trying to work together to find a 
solution that works, because you all are in the business, and I 
hope, as the other side has mentioned, we can come up with a 
solution that works, that is verifiable, but keeps that issue 
of national security in the forefront.
    Mr. Carr, I don't know who is minding the farm now that you 
are in Washington, D.C. I don't think this is peach season 
picking yet, but you had mentioned that in your experience, I 
want to address the issue that Americans will take the jobs 
that foreign nationals are taking. You have heard that since 
you ever started the farming business. I used to kind of 
subscribe to that philosophy as well. I think now we have 
developed a culture where, unfortunately, there are many 
Americans who would rather get paid not to work than will work 
on your farm. They just weigh the good and the bad and they 
decide they can get paid not to work through government 
programs. That is another issue we have to fix.
    So, if I understand you correctly, you advertised for a 
couple of years, 2010 to 2012, for American workers, and you 
had 2,000 positions available for workers, farm workers, and 
483 Americans applied, and they were hired.
    Mr. Carr. Yes, sir.
    Mr. Poe. One hundred nine did not show up on the first day 
of work; is that right?
    Mr. Carr. That is correct.
    Mr. Poe. And then after a couple of days, 321 quit for 
various reasons.
    Mr. Carr. That is correct.
    Mr. Poe. And therefore you ended up with 31 Americans 
working the whole season; is that correct?
    Mr. Carr. That is correct.
    Mr. Poe. Is that experience--and I know that applies to 
your farm--is that experience that you have had typical of the 
industry, in your opinion?
    Mr. Carr. Yes, sir. That is very typical of the industry, 
in my opinion.
    Mr. Poe. And what were you paying those folks?
    Mr. Carr. My prevailing--I mean, my A-wage last year was 
$9.39 an hour, along with free housing and free transportation, 
although for domestic workers the base wage would have been my 
A-wage at $9.39.
    Mr. Poe. Okay. And is that typical? I am about out of time. 
Is that typical or not?
    Mr. Carr. That is very typical of the industry. If you look 
at the statistics, basically 6 percent, roughly 6 percent of 
all U.S. workers that are hired under H-2A contracts finish the 
job. I would say that my numbers are low compared to my 
neighbors to the south in Georgia, who have experienced 1,700 
referrals in 1 year not to produce any that will finish a 
contract.
    Mr. Poe. And you are required to hire Americans if you can.
    Mr. Carr. Yes, sir. We are required to. When I advertised 
these 2,000 positions, this was over a 3-year seasonal period 
where I basically averaged about 650 visas a year, and in doing 
that we have to hire any willing and able U.S. worker that 
comes through the door, with no background check. All we can 
ask them is have they read the contract and can they do the 
work there. We take them to the field. We go through a 2-day 
training process. Quite frankly, most of them leave before the 
training process is even over with.
    But as you reported right there, 109 never even showed up, 
which is another problem within the system right now because 
under current regulations, pre-recruitment, we lose a visa 
requested for every U.S. worker that says they are going to 
show up. So that 109 under new regulations would have lost one-
for-one. We would have lost visas to bring foreign workers over 
here, causing further delays in the program.
    Mr. Poe. Thank you, Mr. Chairman. I yield back my time. I 
believe we can fix this problem and be beneficial to the United 
States. Thank you, sir.
    Mr. Gowdy. Thank you, Your Honor.
    We will be in recess pending votes, and then we will 
return. Thank you. I appreciate your patience.
    [Recess.]
    Mr. Gowdy. The Committee is back in session. Again, we 
appreciate everyone's indulgence with that.
    I would recognize the gentlelady from the state of Texas, 
Ms. Jackson Lee.
    Ms. Jackson Lee. Let me thank the Chairman and the Ranking 
Member for the beginning of a series of very important 
hearings, and these witnesses, who hopefully are being part of 
history today as we try to look at this large question of 
immigration reform.
    I want to acknowledge the American Farm Bureau by 
acknowledging the Texas Farm Bureau, who I have had the 
pleasure of working with very often. It just shows that in 
Texas, you can't run away from our true roots. So I am 
delighted to see you here and to have the insight that you are 
giving to us.
    I want to, before I start my questioning, to just emphasize 
that I believe that there is a sense of urgency. It should be a 
sense of urgency on moving forward on comprehensive immigration 
reform. What we are gaining today is to understand, as I have 
done for over a decade now, having had witnesses such as many 
of you before this Committee before, that there are pieces of 
the immigration puzzle that have distinctive needs. But I don't 
believe we can ride one horse into the sunset and have the kind 
of approach that will help any of you, that as we fix what you 
need, we still need a system of a comprehensive approach 
because the very tradition of farming in many instances, except 
for family farms, is you do want workers who are consistent, 
skilled, but I think you all can see that maybe at some point, 
it may differ now in 2013, those workers may go somewhere else. 
Maybe they are assisting in poultry, and they may go on to some 
other area. And then, as in every profession or every work 
site, new ones come in. But you need a consistency. Your 
business needs to stay in place; you need a consistency.
    I don't think we can get there when we say we can fix this, 
and then we leave a whole gaping hole and leave out 
comprehensive immigration reform.
    I serve as the Ranking Member on the Border Security 
Subcommittee, maritime security, and we met this morning, and I 
said the same thing, that it must be a continuum between border 
security and comprehensive immigration reform, securing the 
border. But I also said that you can't move one without the 
other, because you need to have a certainty on the side of the 
immigration process in order to ensure that our friends at the 
border, the resources, the new way of approaching it, having 
outcomes, will be able to discern those who are here who are 
intending to do harm or the cartels or the drug violence versus 
individuals who are seeking to better their lives.
    So let me go to Mr. Kashkooli on, I think, a package that 
you gave us. I was trying to recount from your testimony what 
you would be interested in and having the right kind of 
package. Why don't you continue to expand? Could you expand on 
this concept? Is this your concept, tying the workers to a 
contract, and then the Federal Government protect their status 
as workers? Could you just expand on that?
    Mr. Kashkooli. Sure. For employers who want to have a 
contract and the security of a contract with workers, we want 
to see the protections that are in the H-2A program. We want to 
see the H-2A program. And those protections are wage 
protections to make sure that farm workers are given the 
average wage, housing, transportation, and that they have some 
kind of security that they will be getting at least 75 percent 
pay for the work. I want to just emphasize what that means, 
because we have been talking about----
    Ms. Jackson Lee. And my time is short. Can I just interrupt 
with a question that Mr. Brown and all others can answer?
    Mr. Kashkooli. Absolutely. So those are the big things. And 
when we say wage rates, what we are looking for is the average 
wage rate of what is paid. In South Carolina, that is $9.78. So 
for someone working for 27 weeks, 40 hours a week, which is a 
job order, we are talking about $10,562.
    Ms. Jackson Lee. For that particular skill?
    Mr. Kashkooli. Yes.
    Ms. Jackson Lee. And let me just say that I view that as a 
skill, and I don't like the issue of high skill/low skill.
    But my question would be would you take the workforce from 
the existing undocumented individuals, and I know the H-2A, or 
are you leaving the pathway open for others to come as H-2A? So 
let me ask, because we have a population of those who are here 
in the United States.
    Mr. Kashkooli. Right.
    Ms. Jackson Lee. And their difficulty is when they finish, 
they have the protection of being on a site when they are doing 
their farm work, which is seasonal. Then they are left, in 
essence, without status, without a job, because it is seasonal. 
The question is do they go back? Do they stay? If they go back, 
because they are undocumented, they can't get back in.
    So let me just ask, are we talking from the existing base 
of workers, or are we recognizing that there may be caps on 
what we can bring in?
    Mr. Kashkooli. We want to see existing farm workers, the 
farm workers who have the skills, who are feeding us right now, 
be able to earn a roadmap and a legal path to citizenship.
    Ms. Jackson Lee. Mr. Brown?
    Mr. Brown. Our industry is uniquely different than the 
other industries at the table as far as the production of 
agriculture that is dependent on H-2A seasonal, and we are on 
the manufacturing side of agriculture.
    Ms. Jackson Lee. Meat packing.
    Mr. Brown. So we assume that the employees in our industry 
are eligible to be employed by passing through E-Verify. Now, 
when we are talking about a visa program from our industry's 
perspective, we are looking at the future for when legislation 
does pass that recognizes those that are in the country now 
undocumented as legal. Once they are recognized as legal, they 
can continue to be employed wherever they so choose, whether it 
is on a farm, whether it is in a meat plant, where have you.
    We also recognize the challenge that work groups do move 
and migrate, as all of our people have through industries. In 
good economic times in this country, people will gravitate 
toward other jobs. So we then recognize a work shortage. We 
want to expand the current visa category and perhaps a new 
category outside of the H-2A program, or if H-2A can 
accommodate it, then we would look at that.
    Ms. Jackson Lee. Mr. Carr?
    Mr. Gowdy. The gentlelady's time has expired. Mr. Carr, if 
you want to answer it----
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Gowdy [continuing]. As quickly as you can, that would 
be great. We are 2 minutes over on this one.
    Mr. Carr. Thank you, Mr. Chairman. Yes, I would like to 
answer that question. First of all, agriculture is united in 
the fact that we do need to keep our labor force that is here 
presently working. So we need to put them into a lawful status 
that allows them to continue to work in agriculture. But by the 
same token, history will show you that when we did this in 1986 
and we gave amnesty to 1.1 million agricultural workers, they 
very quickly left the farm. So any type of proposal has got to 
have a valid guestworker program that is going to provide us a 
future flow of future workers into this country legally.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I think 
we have some challenges to respond to ahead of us, and I think 
we have some complexities that can be handled in the 
comprehensive immigration reform. I yield back.
    Mr. Gowdy. I thank the gentlelady from Texas.
    The Chair would now recognize the immediate past Chairman 
of the full Committee, the gentleman from Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Mr. Chairman, I have 
three concerns, and what I would like to do is address one 
concern to each of three witnesses. The first concern is this, 
and, Mr. Kashkooli, let me ask you to respond.
    In 1986, we had a special agricultural worker program. It 
was riddled with massive fraud. After the program went into 
effect, the Government Accounting Office said that two-thirds 
of the individuals who had been approved as guestworkers were 
fraudulent. About 1 million people were expected to qualify as 
being eligible; 3 million people were approved.
    How do we avoid fraud on that scale if we have another 
guestworker program where virtually anybody can apply for it, 
and how do we avoid what happened in 1986? We had hundreds of 
taxi drivers in New York City qualify as ag workers and 
obviously were allowed to stay in the country.
    Mr. Kashkooli. So I certainly hope we have all learned our 
lesson. In the ag jobs proposal, there was a pass work 
requirement and a future work requirement, so I think that is 
the first. That is important.
    Mr. Smith. But the problem with fraud is that nobody checks 
that. That is what happened in 1986. We just simply don't have 
the resources, the personnel, to check to make sure that that 
individual actually worked where they said they worked. That is 
why we had the New York City taxi drivers claiming to have 
worked on local farms, and clearly that was not the case.
    Mr. Kashkooli. So what we have proposed and in the past had 
agreed on is that there would also be a future work requirement 
to work in agriculture, and my understanding is that any 
proposal that we talk about in a comprehensive way would 
include E-Verify. So I think that is a basic way to make sure 
that we get rid of fraud.
    Mr. Smith. I don't know that E-Verify is going to block 
someone from becoming eligible for a guestworker program 
because E-Verify or any other biometric system that we might 
come up with is just going to check a single identifier. It is 
not going to check background or work or anything else. In 
other words, we recognize that we are trying not to repeat some 
of the same problems, whether they be with enforcement or 
anything else that we had in 1986, and I am just not convinced 
yet that we have come up with any way to avoid the massive 
fraud that occurred in 1986. We will have you just discuss that 
a little bit more, if we could.
    Mr. Stallman, nice to see a Texan here. A question for you, 
and I think you may have addressed it earlier to some extent, 
but I would like to follow up on it. My second concern is the 
endless pipeline. You have individuals admitted to work in this 
country, and if they can work in more than one location, you 
have the endless pipeline as they move on to other jobs, and 
meanwhile the need is still there, so they are followed by more 
individuals who are admitted to work who then leave that job 
and move on, and you end up with millions of people coming into 
the country not working in the jobs that they were requested.
    Mr. Stallman. Well, our proposal is not an open pipeline. 
It is restrictive and----
    Mr. Smith. You limit it to the ag field, right?
    Mr. Stallman. Yes, yes.
    Mr. Smith. Okay.
    Mr. Stallman. It is a proposal where ag employers have to 
register with USDA first to be able to provide a valid job to 
these individuals who come in either under an 11-month portable 
program, that is our portability program, or under a longer-
term contract program. Now, these employees have the ability to 
move from registered employer to registered employer, but they 
are time-limited, and also they can be tracked.
    Mr. Smith. I think you have narrowed the diameter of the 
pipeline there, but I still think you have a modified pipeline, 
because individuals who are needed to pick peaches in the hill 
country of Texas might leave, and then you are still going to 
need people to pick peaches in the hill country of Texas. Then 
you still have that phenomenon, I think, to some extent.
    Mr. Stallman. Well, if they leave the program, they would 
be out of status.
    Mr. Smith. No. But they can move from that job to another 
job, is the point.
    Mr. Stallman. To another ag job.
    Mr. Smith. To another ag job. So you are still leaving the 
original grower with a labor shortage that has to be filled.
    Mr. Stallman. But as long as you have the capability, if 
need is demonstrated and you don't have domestic workers 
willing to do it, as long as you have the ability to bring in 
those workers, I mean, there is not going to be an unlimited 
number of agricultural jobs.
    Mr. Smith. Right, right. So you hopefully hit that, and 
then we will see if that works. I hope it might. We will find 
out.
    Mr. Brown, my third concern is this. If individuals are 
admitted to this country as guestworkers and they stay here for 
any substantial length of time, then they are not guestworkers, 
they are permanent workers. But that occurs because they are 
not going home. If you have someone here for 3 years who 
doesn't have to go home until the 3 years is up but only has to 
go home for a very short period of time during a several-year 
period, I don't think they are ever going to go home, 
particularly if family members have been able to join them and 
so forth.
    That is why I think a true guestworker program--and I see 
my time is up--would be a short guestworker program. Real 
quickly, can you respond on that? Turn your mic switch on 
there, yes.
    Mr. Brown. I would respond in two ways. One, there are ways 
to track these people currently, and there are ways to improve 
E-Verify, with E-Verify Check. But also when we bring----
    Mr. Smith. I am talking about the length of time now.
    Mr. Brown. But when we bring guestworkers into this 
country, we can establish through E-Verify electronic data for 
an exit visa. So the government will know when the time is up 
and prevent them from going to another----
    Mr. Smith. But do you think they should go back every year 
for some period of time, or do you think they should be allowed 
to stay for many years? In which case, I would argue they are 
no longer temporary or guestworkers.
    Mr. Brown. I think there should be a path to legalization, 
and I am going to leave that judgment----
    Mr. Smith. You are going in the opposite direction. Okay. 
But that is not a guestworker program.
    Thank you, Mr. Brown. Thank you, Mr. Chairman.
    Mr. Gowdy. I thank the gentleman from Texas.
    The Chair would now recognize the gentleman from Illinois, 
Mr. Gutierrez.
    Mr. Gutierrez. Thank you very much, Mr. Chairman.
    First of all, I have been here 20 years and I have never 
seen a panel put together like the one that we have before us 
that has been put together by the Republican majority and with 
invitations from the Democratic minority in which I have to say 
that in each and every instance, all of the witnesses, I am 
able to share values, I am able to share perspectives with you, 
I am able to sympathize, I am able to say that is how I think.
    Now, I think that bodes well for finding a solution to a 
problem. So I just want to say to all four of the witnesses--
Mr. Gowdy, I want to congratulate you. I want to say that the 
first set of witnesses that we had from the STEM industry was 
very much the same; that is, people giving their perspective so 
that Congress can find a solution. What an incredible thing. I 
think that that is exactly what is going to happen here. I 
think that is part of the magic of the moment in which we live 
in, number one.
    Many people question why I would leave 20 years of 
seniority on the Financial Institutions Committee to come here 
and be a junior member. I would tell you, the answer is right 
here, because all of the Members of the Subcommittee showed up, 
and all the witnesses have brought information that helps us 
solve a problem. So that is why I came here, because I thought 
that that is exactly what the men and women of this Committee 
were going to do independent of their political affiliation. 
They were going to look for a solution. I think the testimony 
that all of you have given today is a reflection of that.
    Now, I want to say to Mr. Carr, I want you to be a 
successful farmer, and I want you to have the workers that you 
need, and I want you to have the reliable workers. I want you 
to have happy workers. I want you to have American workers. I 
want you to have people who share the same bond to this country 
and to that land that you and your parents and your 
grandparents shared with that land. I want them to adopt this 
and make it their own, as I am sure you have made it your own, 
and your family has. So that is always going to be where I look 
at this particular issue.
    So I think, Mr. Stallman, as you begin to talk about a 
pathway to legalization--and let me just say, as Democrats, 
when we first introduced bipartisan comprehensive immigration 
reform in 2005, I did it with Congressman Flake here, and 
Colby, and it was Kennedy and McCain. The first of 700 pages, 
the first 400 were enforcement issues, with E-Verify there. So 
we passed that stage a long time ago. The Democrats have always 
been, and those who believe in comprehensive immigration reform 
and are looking for solutions understand that we need a 
verification system, because I don't want another underclass of 
immigrants in this country again. I want to end illegal 
immigration and undocumented workers once and for all in this 
country, and I think that that should be the solution that we 
are looking at.
    So I want to say to Mr. Brown, look, I am ready to see what 
we need to do with dairy and poultry and those that pick garlic 
and those that pick lettuce and tomatoes and peaches and see 
how it is we categorize them. Whatever makes the most sense for 
productivity and for putting food on our tables and making sure 
that America is independent, because I think Mr. Carr makes a 
great point. We talk about energy dependence and the dependence 
on oil. We are quickly going to become a country that is going 
to be dependent on the fuel that Americans need each and every 
day as human beings, and that is food to put into our bodies 
and to fuel ourselves. So I think that is the place where I am 
going to be at.
    So I want to thank the Chairman. I want to say to Zoe 
Lofgren, I am so excited to be working with both of you and 
under your leadership in this Committee.
    I have just one question that I want to put, because I want 
to be also true to who I am and the values that I bring to 
this. So I guess I will ask Mr. Stallman. If Mr. Kashkooli 
organizes workers, do the members of your association, do the 
farmers have the right to fire one of your workers on one of 
your farms for joining a union and organizing in that union? Do 
you think that is right, that they should be able to be fired? 
They are doing a great job. They are picking the peaches. They 
are picking the grapes. They are picking the lettuce. They are 
picking the tomatoes. They are a great worker. But they decide 
to join a union. Should that farmer be able to fire that worker 
for joining a union or organizing a union?
    Mr. Stallman. We, in our proposal, have basically indicated 
that we do not want an expansion of collective bargaining 
rights beyond where they are now.
    Mr. Gutierrez. But what does that--I am in the union. I am 
picking on Mr. Carr's farm peaches, and I am doing a good job 
of picking peaches. I doubt that I could do it, but just let us 
for a moment imagine that I did, and I wanted to join a union. 
Should Mr. Carr be able to fire me for joining that union even 
though I am doing a good job in every other respect?
    Mr. Stallman. If South Carolina is a right-to-work state, 
which I believe it is currently, they should have the ability 
to do that.
    Mr. Gutierrez. Thank you.
    Mr. Smith [presiding]. Thank you, Mr. Gutierrez.
    The gentleman from Iowa, Mr. King, is recognized for his 
questions.
    Mr. King. Thank you, Mr. Chairman. I want to thank all the 
witnesses. I think this is an excellent panel, and I appreciate 
you coming and delivering your testimony here before Congress 
today.
    I listened to the testimony that is here, and I am hearing 
from interests along the way that our jigsaw puzzle pieces to 
the broader picture of what America has become and what America 
will become, depending on what decisions are made in this 
Immigration Subcommittee and in the fuller Judiciary Committee 
and by the voice and the will of the American people, hopefully 
reflected here by the United States Congress.
    I usually think that we should address these problems by 
asking the bigger questions first. For example, there is 
something over 6.3 billion people on the planet. We know 
feeding them is a very difficult task, and that is what we are 
trying to get done.
    How many people would come to America if we adopted an open 
border policy? I ask that question rhetorically. I know no-one 
can deliver the answer to that, but we have to ask that 
question. We will have to answer that question, because each 
time that we open this up, it opens another gate, and we can't 
count the number of people who will come through that, but it 
was 1.1 million under the '86 act, and Chairman Smith said, and 
I agree, it is the numbers I have been dealing with, over 3 
million people actually came through that gate. How many might 
come through a limited gate in a guestworker program? We don't 
know that answer, but it has always been more than has been 
announced.
    There are 11 million people here illegally. Well, some of 
that data holds up, and some of that I question. I think the 
number is larger. But those are things that we have to answer 
here as a panel, and I don't want to put you all on that 
particular spot, but I would ask this.
    If we do a guestworker program and the question becomes, as 
Mr. Smith said, they become permanent residents under anything 
that we can devise, one of the things I would suggest is if we 
go that path, why not bond those workers so that we can ensure 
that they do return to their home if it is going to be a 
guestworker?
    I ask first Mr. Stallman if you and your organization can 
support a bonding philosophy and insurance. Here is what I do 
in my business. I guarantee that I will perform on the 
contracts that I enter into. So if the employer or the agency 
that he hires can post a bond that says we will ensure that 
they will go back home at the end of this period of time and 
then there will be no claim on the insurance, that would 
guarantee that. That would be the bonding concept. I would 
guess from the look on your face that you have not discussed 
that. Is that correct?
    Mr. Stallman. That is correct. Our program depends on 
setting up a legal structure for the process to occur, and then 
having an enforcement mechanism with technology and biometric 
identifiers and all of those things. The enforcement technology 
is available to where you control what happens under that visa. 
They are not flowing into the country in an unlimited fashion 
or staying. Our proposal contemplates returning back for 
certain periods of time, returning back to their home country.
    Mr. King. We have seen the lack of enforcement since '86, 
and I would submit that since the '86 amnesty act was passed, 
there has been a decreasing enforcement of our immigration law 
in each succeeding Administration. So we are back to this 
question that all of this is predicated upon enforcement of the 
law, and I am suggesting instead that some of you have 
testified you would like to see the market forces take care of 
the migration. Why not allow the surety companies to take care 
of the law rather than the Administrations, that have 
demonstrated they will not do that?
    I would just ask you this. Would you be open to that kind 
of discussion, to nail down a better way to ensure that the law 
would be enforced?
    Mr. Stallman. We are always looking for better ways for the 
law to be enforced. I think the problem that would exist with a 
bonding requirement, as we envision this program working with 
portability for workers, is who is going to be responsible?
    Mr. King. Exactly.
    Mr. Stallman. We are basically allowing workers to work for 
multiple employers, which meets the needs of agricultural 
employers.
    Mr. King. And if you had the bonding, and then the 
financial services portion of this would make that insurance, 
and we wouldn't have to rely upon the government to enforce the 
law.
    I would pose another one here to Mr. Brown. And that is, 
would you agree that wages and benefits knowingly paid to 
people who cannot lawfully work in the United States should not 
be tax-deductible as a business expense?
    Mr. Brown. We would support any enforcement proposal that 
guarantees or helps to guarantee that the people we are hiring 
are eligible, and if that is part of the component, then we 
would support that.
    Mr. King. And if we were to amend E-Verify so that 
prospective employees could be utilized, and also that current 
employees could be checked by the employer? And when I say 
utilize, utilize E-Verify for prospective employees and current 
employees. Would you support that so that an employer could 
clean up their workforce if they chose?
    Mr. Brown. Being an industry that has used the program for 
over 20 years, we would find it very difficult to expand E-
Verify until it is fixed. If E-Verify is fixed and we can get 
past the issues outlined in my testimony, then we would be for 
expanding E-Verify's use. But currently, Congressman, you 
cannot determine other than whether a name and a Social 
Security number matches. That is why people get through the net 
on the one hand, and enforcement comes our way. On the other 
hand, if we are too aggressive without something similar to 
Self Check, then we are set up for the discriminatory 
provisions.
    So we will work with every Member of this Committee to make 
E-Verify effective, and our industry will use it 100 percent.
    Mr. King. I thought your recommendations on that were 
solid, and I am glad that you followed through and fleshed it 
out.
    I see that I am out of time. Mr. Chairman, I thank you and 
I yield back.
    Mr. Smith. Thank you, Mr. King.
    The gentleman from Florida, Mr. Garcia, is recognized for 
questions.
    Mr. Garcia. How are you gentlemen doing? Let me just 
reiterate, I think the position on this side, we want 
agricultural workers. As you may or may not know, we have a 
densely packed agricultural area in my district. It is the most 
productive land. But we have some of the similar problems that 
Mr. Carr is talking about. I don't think anyone there would 
agree with the statement that we have been decreasing 
enforcement, right? I don't think any of you would think that 
that is what is going on, right? You can say it into the mic. 
It's all right. We can hear you over here.
    Mr. Stallman. Based on the reports from our members in 
various parts of the country, it seems like enforcement by ICE 
has been increasing.
    Mr. Garcia. Right. Mr. Carr?
    Mr. Carr. Not just by ICE but by the Department of Labor it 
has been increasing quite a bit.
    Mr. Garcia. Mr. Brown?
    Mr. Brown. ICE, Department of Labor, and Department of 
Justice.
    Mr. Garcia. That's good to hear.
    Mr. Kashkooli. ICE enforcement is absolutely up. All you 
have to do is look at how much it costs for somebody to get 
across the country. That market is working.
    Mr. Garcia. We spent $18 billion on enforcing the border. 
That is more than we spend on the FBI, DEA, and all other 
Federal law enforcement. We had negative immigration last year. 
So I clearly understand your position.
    I had a meeting with my farmers last week. We were not here 
working, so I was meeting with some farmers, and my farmers 
said--at one point I said to my farmers--I was trying to be 
sympathetic. I said, you know, we need to get these folks 
documentation. They all smiled. A few of them chuckled, and 
they said, well, Congressman, they all have documentation. 
Whether it is real or not, we have no clue. Which I think 
basically spoke to the truth, that they don't have 
documentation.
    Here is what I know. I know I can be in a canoe in Thailand 
and buy a mango for 15 cents, and the 15 cents at my home in 
Miami. The reality is we can figure out who they are and where 
they are if we really want to, and I think some of your 
positions on E-Verify make sense. I think these should be 
agricultural workers. I don't think they should be able to move 
to another line.
    The farms in my district are relatively small, the nursery 
business or the tropical fruit business. They work for a few 
months, and then they go up to Wisconsin to pick cherries, and 
then they come back and they work on the perennials. These 
folks want to work the land.
    You know, Mr. Carr, I tend to think of the American worker 
as the greatest worker in the world. They are certainly the 
most productive worker. Obviously, your experience is not the 
same. So I have to assume that these are super-humans we are 
importing to do our work.
    Why is it that these people work harder than native 
Americans? My grandfather was a gardener, so I worked with him, 
and I know what it is to do back-breaking work. So, what is the 
matter?
    Mr. Carr. In my opinion, what you are looking at is they 
are wanting to live the American Dream. People that have been 
here in this country, we are living it every day. People that 
are coming in on these immigrant programs, the guestworker 
programs, this is a pathway to a better life for them, so they 
are willing to work hard. I am not saying that they work harder 
than the Americans that we have. What I am saying is that the 
Americans we have here are not willing to do the jobs that we 
have at the farm level.
    Mr. Garcia. Well, these are pretty special people, so I 
think they deserve treatment of some sort. I know we are 
sympathetic. I know you guys are in a tough place. I deal with 
farmers all the time in my district. I know you are trying to 
do right by them, just like I know those who organize laborers 
are trying to do the right job. But we need something that 
gives them some ability to make you compete for their work, but 
obviously most of you are too small to do contracts or 
contracts that lock them. I know that in the dairy industry, we 
may have to look at a special type of relationship there. But I 
am sure that on your farm it is seasonal, too. So they get to 
work other places, too. Correct?
    Mr. Carr. That is correct. I am farming seasonal, which is 
part of the problem with the program.
    Mr. Garcia. Correct.
    Mr. Carr. Right now, the program requires employment to be 
seasonal in nature. What we need to do is put the seasonal 
nature on the worker and make the worker have a home tie to his 
home country, so making him temporary but not the job. 
Therefore, my company has progressed from 16 weeks a year 
harvest to 38 weeks a year harvest. I am bumping the boundaries 
of being able to participate in the program. This program needs 
to expand to all of agriculture no matter what your employment 
needs are, but let the worker be temporary in nature but not 
exclude anybody from participating just because your job is 
year round.
    Mr. Garcia. Very good. Mr. Chairman, I yield back the 
balance of my time. I appreciate it.
    Mr. Smith. Thank you, Mr. Garcia.
    The gentleman from Idaho, Mr. Labrador, is recognized for 
questions.
    Mr. Labrador. Thank you, Mr. Chairman.
    I read recently that Chamber and labor groups have come to 
an agreement in which they have agreed to principles regarding 
a new guestworker visa program, and one of the issues they 
agreed upon is the need to have a new government agency to 
analyze the market and come up with the right numbers of visas 
to issue.
    Mr. Stallman, is there currently a cap on the number of 
visas that are issued through the H-2A program?
    Mr. Stallman. The visas that are issued are subject to 
indicating the need. I don't know if there is----
    Mr. Labrador. There is no cap, right? So even though there 
is no cap on the number of visas that are available, the 
program that I hear the most complaints about in my office is 
actually the H-2A program. It is quite problematic. I was an 
immigration lawyer for 15 years. I heard a lot of those 
complaints as well.
    It is so bureaucratic and inefficient that many employers 
actually prefer to work outside of the system and they are not 
working within the system, and I hear the same about the H-2B 
program, which is no better. In fact, just recently I had a 
constituent in my office whose livelihood depended upon 
receiving a piece of paper from the Department of Labor. He was 
waiting for the Department of Labor to approve the 
certification, and he flew all the way across the country. He 
came all the way from Idaho to Washington just so he could sit 
at the Department of Labor and wait for somebody to give him an 
approval so he could get the bureaucratic permission to proceed 
with his business.
    We need to figure out how many visas are needed, as the 
Chamber and labor groups are saying. But I am not sure that a 
new agency is the right way to do it. What are your thoughts 
about that, Mr. Stallman?
    Mr. Stallman. Well, I am not sure a new agency to determine 
the number of workers and putting caps is the right way to do 
it at all. Our program is based on the concept of demonstrating 
need and having a market-based presence, basically, to allow 
those to come in to meet whatever the market needs. Some type 
of artificial caps determined by an agency of the government is 
probably not going to work very well for agriculture because 
agriculture's needs are very variable, and government response 
to addressing those needs in terms of assessing the number of 
visa permits or the number of individuals that need to come in 
will probably fall behind the curve.
    Mr. Labrador. What are your thoughts about that, Mr. Carr?
    Mr. Carr. I do believe that a new agency needs to 
administer this program. First of all, it is in the Department 
of Labor right now, which currently has put all the regulations 
on the program, which prevents most employers from using it. By 
putting it in the USDA, an agency that is used to working with 
the farming industry, you can leave enforcement in the 
Department of Labor. But actually administering the program, I 
do believe it needs to move over to the USDA, who has the 
background of working with farmers in administering farm 
programs.
    Mr. Labrador. And do you think the Federal Government 
should be determining what the needs are of the farmworkers, or 
do you think that we should allow the market to?
    Mr. Carr. Currently, the H-2A program is uncapped, and I 
believe that any future program should be uncapped. If you 
create a system that has been put out there by the AWC, and you 
have a portable visa and a contract visa, within a certain 
amount of time and whatever you do with the adjustment of 
workers, you will fill up the workforce, and then your basis 
will be there. The transition and understanding what the 
transition is going to look like and putting an artificial cap 
on it could hinder business and continue to move operations 
outside our borders.
    Mr. Labrador. Mr. Kashkooli, you said in your testimony 
that you want the free market to work, but the free market is 
not an unlimited supply. I was a little bit confused by that 
statement. What is the free market if----
    Mr. Kashkooli. Well, it shouldn't be an unlimited supply of 
minimum wage labor. What we are talking about is that there 
needs to be certain guideposts. Right now in the country, there 
are 600,000 U.S. citizens and legal residents who are 
professional farm workers. There is an additional million or so 
farm workers that we hope will be able to earn legal status 
through this program.
    So the Department of Labor's job should be to make sure 
that, at a minimum, that U.S. workers, their wages are 
protected, that we have some kind of opportunity for them to 
get the job, and let us be clear about what we are talking 
about here. We are talking about the farm worker who is a U.S. 
citizen who right now is making maybe $10 an hour. If another 
employer can bring in a job at $8 an hour without having to 
offer that job to the person who is making $10 an hour, the job 
at $10 an hour, of course, that person is not going to apply 
for that job. So that doesn't make sense.
    So a program that would allow an unlimited supply of people 
making minimum wage, that is not a market----
    Mr. Labrador. So who determines the supply? Is it going to 
be some government agency here in Washington D.C.? Is that what 
you want?
    Mr. Kashkooli. That is not actually what the United Farm 
Workers have suggested.
    Mr. Labrador. So what are you suggesting?
    Mr. Kashkooli. We think there are a number of ways you can 
do it. In the H-2A program, that is a program that does not 
have a cap right now. So that program is always going to be 
available. We think you should take the number of people who 
are going to earn legal status through the new program and 
allow other visas to be added based on the number of those 
people who leave. We do think that there does need to be a 
basic wage test. If farm worker wages on average are going 
down, then by definition there is going to be an oversupply, 
and therefore there shouldn't be any new visas based on the 
average farm worker wages. And it is not, in fact, that 
complicated to get the average wage. The USDA does this every 
year. They get the average wage that farm workers are paid and, 
by definition, it is an average. So some employers don't like 
it because they have to pay a little bit more. Some farm 
workers don't like it because, therefore, they are getting paid 
less. But it is actually not that complicated. The USDA does it 
every year.
    Mr. Labrador. Thank you.
    Mr. Smith. Thank you, Mr. Labrador.
    The gentleman from Puerto Rico, Mr. Pierluisi, is 
recognized for questions.
    Mr. Pierluisi. Thank you, Chairman.
    I have a couple of questions for Mr. Brown. I saw from your 
testimony that you and your coalition of food manufacturers 
support an earned legalization program for undocumented 
immigrants living in the shadows. You specifically stated that 
Congress must provide a fair and practical roadmap to address 
the status of unauthorized immigrants.
    What, in your view, what would be a fair and practical 
roadmap? And would it include or would it bar immigrants from 
ever attaining citizenship?
    Mr. Brown. Our coalition doesn't go that far, sir. But I 
would say that we would begin with the thought that if we are 
talking about undocumented workers, that we would be talking 
about a pathway forward for people that are actually in the 
country now, working and contributing to the system. I think 
that would be the pool of people that we would be referencing.
    Mr. Pierluisi. I also notice that you discuss the many 
benefits that immigrant workers bring to the communities in 
which your coalition has its businesses, including paying 
taxes, preventing shrinking school enrollment, and keeping 
businesses alive in communities with declining populations. Can 
you expand on the benefits to rural and distressed communities 
from growing immigrant communities?
    Mr. Brown. Absolutely. As the son of an immigrant, there 
are many attributes that they bring to communities, from their 
cultural aspects, it could be religious aspects, working with 
boys and girls in the various sports programs, et cetera, 
working with law enforcement, the entire cultural experience, 
the fabric of our society is supported with these people.
    Mr. Pierluisi. I will address these next questions to 
either Mr. Stallman or Mr. Kashkooli. When I think about farm 
workers, I immediately think about their wages and working 
conditions. I just heard that the H-2A program doesn't have 
cap. But I know that it does have certain requirements that 
discourage employers from seeking more workers than they need, 
and that is what comes to my mind.
    It seems it would be in the interest of employers to bring 
in as many workers as possible, because under the laws of 
supply and demand, a large supply of workers will lead to lower 
wages. Yet, these lowered wages and working conditions would 
harm farm workers and could lead to U.S. citizens losing jobs 
to foreign workers from poorer countries.
    It sounds to me like a cap makes sense. We should have a 
cap on any guest farm worker program.
    Mr. Kashkooli. The United Farm Workers agrees with that 
position. There is a program right now, the H-2A program, that 
does not have cap. That is okay. There is a set of protections 
to make sure that people are not abused. They are imperfect. We 
would like to see the protections stronger. The employers would 
like to see them in a different direction. But, yes, any new 
program we think needs a cap.
    Mr. Pierluisi. Would you agree with that, Mr. Stallman?
    Mr. Stallman. No, we do not agree with a cap because of the 
variable needs of agriculture and how quickly those needs can 
change. That is why we are promoting a market-based program 
that will allow the market to make those adjustments. An ag 
employer can indicate that they need positions and workers who 
wish to come in and work for the conditions that exist, which 
in many cases will be wages that are above minimum wage for 
sure, and as we have already talked about, the average is over 
$9 an hour.
    So the question is, to establish that workflow to meet the 
needs that exist, if you used a market-based program, you can 
do that, and we don't think a cap is suitable because if 
someone gets the cap wrong, agriculture gets hurt.
    Mr. Pierluisi. I yield back.
    Mr. Smith. Thank you, Mr. Pierluisi.
    I would like to recognize myself to ask a follow-up 
question that came to mind as a result of Mr. Pierluisi's 
questions. You responded by saying you believe in a market-
based approach. One concern I have and that I am sure you have 
as well is that oftentimes the government does not give us the 
statistics or the figures or the metrics for the information we 
need for a market-based approach until after 6 months or a 
year, or sometimes 2 years. So how would you be able to respond 
in a timely way if you are not getting those figures or 
statistics for a number of months or perhaps a year?
    Mr. Stallman. And that is the whole point in not allowing 
the government to set artificial wage rates, as they do in the 
H-2A program. What we are talking about doing is an ag employer 
can indicate that there is a need that cannot be filled with 
domestic workers, and then they will be a pool, if you will, of 
workers that are willing to come in.
    Mr. Smith. But aren't you going to be dependent to some 
extent on what the unemployment rate is among some of those 
workers, or not?
    Mr. Stallman. I suspect an unemployment rate among those 
workers or those that aren't working, particularly if they are 
there under the program we have envisioned and they have 
portability, they will be moving to where the jobs and the 
wages are.
    Mr. Smith. Okay. That is a pure market approach, and it is 
reliant upon, as you say, no government information whatsoever. 
Is that correct?
    Mr. Stallman. Well, the government role in this is to 
establish the structure of the visa program and the 
restrictions----
    Mr. Smith. Right. No, I am talking about as far as 
unemployment figures or anything else. You are not going to 
respond to anything the government does.
    Mr. Stallman. Because you would have to do a correlation 
directly with specific agricultural jobs, because you can't do 
it in general.
    Mr. Smith. Okay. Thank you. That answers my question.
    No other Members are here to ask questions.
    Thank you all for your testimony today. It was very, very 
helpful, and appreciate your input.
    [Whereupon, at 4:40 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
